I

CERTIFICATE OF SERVICE

i
2
3
4
5

6
7
8

STATE OF CALIFORNIA, Contra Costa County; I am citizen of the United States. I
declare that I am over the age of 18 years and that I am not a party to this action; Michael
Bruzzone v Intel Corp., ARM Inc. and Softbank ARM Holdings pic., filed Petition foi
Writ of Certiorari to the United States Supreme Court. My address is 5941 McBryde
Avenue, Richmond, CA 94805. On this date set I caused documents to be served.
1) 11 Copies Petition for WRIT of CERTIOARI consideration U.S. Supreme Court
2) 11 Copies Motion for Petitioner Leave to Proceed in Forma Pauperis
3) Rule 29 Service of Petition to Respondent Corporation Attorneys
4) Rule 28 U.S.C. ยง 2403(a) Service to U.S. Solicitor General Mr. Noel Francisco
Service is accomplished enclosing copies of documents listed delivered by United States
Postal service:

9

1)

Clerk of U.S. Supreme Court, 1 First Street, N.E. Washington. D.C. 20543

2)

Intel Corporation; represented by Mr. William Faulkner, McManis Faulkner Law,
50 West San Fernando Street, 10th Floor, San Jose, CA 95113.

3)

13

ARM Incorporated and Softbank ARM Holdings pic ; represented by Mr. Brian
Affrunti, Burke Williams Sorensen Law, 60 South Market Street, Suite 1000, San
Jose, CV 95113

14

Pursuant United States Solicitor General

10
li
12

15

4)

Mr. Noel Francisco, Solicitor General, Dept, of Justice, 950
Pennsylvania Ave., Room 5616, Wash., D.C. 20503-0001

16
17
18
19
20

21
22

I declare foregoing is true and correct.
23
24
25

Executed on ^p^VslAAte
at Richmond, California.
Jo Ann Eichman
CERTIFICATE OF SERVICE

57

